  Strategic Advantages of Moving Mail by Rail




                               July 16, 2012




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-12-013
U.S. Postal Service Office of Inspector General                                                        July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                         RARC-WP-12-013



                Strategic Advantages of Moving Mail by Rail


                                          Executive Summary

The U.S. Postal Service has a long and storied history of moving mail on rail dating from
the very beginning of the railroad industry in the early 1800s. Mail was sorted on trains
and Post Offices and processing facilities were located near rail stations. Many
innovations and changes to rail, including the very development of intermodal rail, were
closely tied to the movement of mail. However, today the Postal Service meets its
surface transportation needs almost entirely by using trucks owned by highway
contractors. In fact, in 2011 the Postal Service spent more than $3.3 billion on highway
contracts and only $40 million on freight rail contracts. By contrast, postal competitors
have greatly expanded their use of rail and have worked hard to realign their networks
with the nation’s railroads.1

Many transportation users have noted the significant improvements in service, cost, and
fuel efficiency that the freight rail industry has achieved since deregulation more than 30
years ago. In fact, intermodal rail service has improved to the point it can now provide
service standards competitive with highway. Today, it is widely accepted as industry
standard that rail is far more economical than highway for long-distance surface
transportation.2 Additionally, rail transportation is approximately four times more fuel
efficient than trucking.

The U.S. Postal Service Office of Inspector General (OIG) Risk Analysis Research
Center (RARC) found that by increasing its use of intermodal rail the Postal Service
could save transportation costs, gain long-term strategic advantages, and still continue
to meet existing service standards. While fully realizing all potential cost savings would
take time and effort, some savings are achievable without changes to the current
network. The modernization of the rail industry has made it a viable, cost-effective
option for meeting some of the Postal Service’s long-distance surface transportation
needs. The rail industry’s improved services, increased capacity, reduced exposure to
fuel price volatility, and long-term outlook can also protect the Postal Service from
strategic risks posed by its current reliance on the highway trucking industry.




1
  This paper discusses intermodal freight rail, not Amtrak’s passenger rail service. The use of Amtrak to transport mail
is beyond the scope of this paper. For a brief history of the Postal Service’s past use of Amtrak to transport and sort
mail, please see Appendix A.
2
  Chris Caplice, “Best of Both Worlds,” Inside Supply Management, vol. 22, no. 9 (December 2011), p. 32.
Shipments greater than 500 miles favor intermodal rail. Subscription required.


                                                           i
U.S. Postal Service Office of Inspector General                                    July 16, 2012
Strategic Advantages of Moving Mail by Rail                                     RARC-WP-12-013


Key findings include the following:

       Intermodal rail has become an industry standard for efficient long-distance freight
        transportation and is a best practice that could cut postal transportation costs
        dramatically.

       The OIG estimates that in the short term, shifting a portion of mail volume to
        intermodal rail could yield cost savings of about $100 million per year without
        changes to the Postal Service’s network.

       By realigning its processing and transportation network and strategically
        recommitting to the use of intermodal rail, the Postal Service could save
        significantly more in the long run.

       Because railroad-owned logistics companies now work to facilitate the use of
        intermodal rail for its customers, moving to intermodal rail would be easier for
        postal management than in the past.

       Competitors such as UPS and FedEx have become major users of freight rail
        over the last decade just as the Postal Service has moved away from it. In fact,
        UPS is now the single largest user of intermodal rail service in the United States.
        J.B. Hunt, one of the Postal Service’s largest highway trucking contractors, now
        earns about 60 percent of its revenues from intermodal rail operations.

       The rail industry has invested more than $460 billion in capital improvements
        since deregulation in 1980 and continued to invest heavily even during the recent
        recession. Such private investment is under the industry’s control and is greatly
        expanding the efficiency and capacity of the rail network. In contrast, highway
        improvements are largely outside of that industry’s control and capacity is not
        expanding sufficiently to meet demand.

       The use of intermodal rail can contribute significantly to reducing greenhouse gas
        emissions and meeting the Postal Service’s environmental goals.

       Because of its lesser sensitivity to fuel price increases, its stable labor capacity,
        and greater control of its own infrastructure, rail transportation has major, long-
        term strategic advantages over highway. The Postal Service could benefit now,
        and particularly into the future, by having intermodal rail play a larger role in its
        transportation mix.




                                                  ii
U.S. Postal Service Office of Inspector General                                                                 July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                                  RARC-WP-12-013




                                                Table of Contents

Background: Intermodal Rail and the Postal Service ...................................................... 1 
         A Rich History of Collaborative Development ....................................................... 1 
         Postal Service Laid the Groundwork for Modern Intermodal Rail
         in the 1980s .......................................................................................................... 2 
         Rail Disruptions and Recovery through Investment in the 1990s ......................... 2 
         Private Sector Participation Fostered Intermodal Rail
         Modernization ....................................................................................................... 3 
         Best in the World .................................................................................................. 4 
         Growth of Intermodal Rail ..................................................................................... 5 
         Postal Service Management Reluctant to Recommit to
         Intermodal Rail ..................................................................................................... 5 

Financial Analysis............................................................................................................ 6 
         Overview .............................................................................................................. 6 
         OIG Cost Savings Model ...................................................................................... 7 
         Other Potential Savings Opportunities .................................................................. 8 

Future Trends Suggest a Need for Rail ........................................................................... 9 
         Capital Investment ................................................................................................ 9 
         Workforce Trends Impact Stability and Reliability of Service .............................. 11 
         Lower Fuel Consumption Makes Railroads Less Vulnerable to
         Fluctuating Fuel Prices ...................................................................................... 12 

Environmental Impacts .................................................................................................. 14 

Conclusions and Policy Options .................................................................................... 15 




                                                               iii
U.S. Postal Service Office of Inspector General                                                            July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                             RARC-WP-12-013




                                                      Tables

Table 1:            Key Postal Service/Rail Industry Events ................................................ 1 


                                                     Figures

Figure 1:           A Single Mail Truck Compared to a Double-stack Train ........................ 4 

Figure 2:           Intermodal Rail vs. Long-Distance Trucking Cost Per Load .................. 7 

Figure 3:           Inflation Has Eroded Purchasing Power of Fuel Tax
                    Revenue .............................................................................................. 10 

Figure 4:           Stability of Rail Fuel Consumption ....................................................... 13 

Figure 5:           Greenhouse Gas Emission Reductions ............................................... 15 


                                                 Appendices

Appendix A          The Postal Service and Amtrak ........................................................... 18 

Appendix B          UPS and Intermodal Rail — A Collaborative Success ......................... 19 

Appendix C          Perceived Barriers to Change.............................................................. 20 

Appendix D          Financial Analysis Model ..................................................................... 21 




                                                           iv
U.S. Postal Service Office of Inspector General                                               July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                RARC-WP-12-013




                  Strategic Advantages of Moving Mail by Rail


Background: Intermodal Rail and the Postal Service

A Rich History of Collaborative Development

The U.S. Postal Service (Postal Service) and the U.S. railroad industry have shared a
history going back to the early 1800s. The Postal Service developed its transportation
network around the railroads, linking the nation’s major population and industrial
centers. This created a critical infrastructure supporting communications and business
transactions. Well into the mid-1900s, railroads provided valuable services to the Postal
Service, including warehousing and sorting mail en route. This practice was an efficient,
reliable, and cost-effective way to deliver written communications among the growing
industrial and urban centers and to connect rural America. However, after World War II,
the newly created Interstate Highway System spurred the rise of the trucking industry.
With this new infrastructure, trucking proved to be more innovative, reliable, faster, and
flexible than the railroads. As a result, the trucking industry became the dominant
transportation mode for the Postal Service and the rest of the nation. Highlights of key
historical events are shown in Table 1.
                             Table 1: Key Postal Service/Rail Industry Events
  Year                                                       Event
1800s+         Postal Service and railroads develop their operations around each other to provide
               widespread mail transportation throughout the country.
1950           United States develops Interstate Highway System. Spurs the rise of the trucking industry.
               Truckers begin competing with and replacing rail for postal business.
1980           Congress passes the Staggers Act.3 Deregulates the rail transportation industry. Allows the
               railroads to invest in infrastructure and become rate competitive.
1983           Rails work with Postal Service to develop "Mail Trains," which provide fast and reliable
               scheduled intermodal service based on postal sort times.
1985           Mail Trains attract private package and trucking companies to use intermodal services and
               substantially increase rail business.
1990 -         Railroads experience capacity constraints and major service disruptions. Postal Service
1993           accelerates shift from intermodal rail to trucking.
1994           Railroads increase investment in infrastructure projects to promote containerization and
               double stacking. Service improves but railroads do not gain postal business.
1997           Major rail mergers occur. System, labor, and integration problems create further service
               disruptions. Postal Service moves more intermodal business to trucking.
Source: Wilson Technologies, Association of American Railroads, and U.S. Postal Service.




3
    Public Law 96-448.


                                                        1
U.S. Postal Service Office of Inspector General                                                       July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                        RARC-WP-12-013


Postal Service Laid the Groundwork for Modern                                         The Postal Service
Intermodal Rail in the 1980s                                                          was once the
                                                                                      country’s largest user
To regain volume from the trucking industry, the freight                              of intermodal rail.
railroads began investing in trailers, flat cars, and intermodal
yards located in industrial centers near major postal facilities. Meanwhile, the Postal
Service’s business demanded a more standardized and reliable level of service. To
meet their common needs, during the mid-to-late 1980s, the Postal Service and the
freight railroads developed scheduled intermodal train services and integrated software
and service information — major developments in logistical practices that are still used
today.

Intermodal rail is a subset of freight rail service involving the coordinated use of two or
more different modes of transportation. For this study, the term “intermodal rail” is used
to describe the movement of containerized goods via rail on specific types of trains. This
service takes advantage of the best features of both rail and trucking: the shipment
travels via rail for most of the length of its trip, and is picked up at origin and dropped off
at destination via truck. The railroads transport intermodal containers on trains with
dedicated schedules and delivery commitments.4

As intermodal rail developed and modernized, the Postal Service became the largest
user of intermodal rail service. This was widely acknowledged in the industry, as the
fastest and most reliable intermodal trains during the mid to late 1980s were called “mail
trains.”5

Rail Disruptions and Recovery through Investment in the 1990s

As the popularity of intermodal rail grew, the railroads were unprepared for the rapid
growth that followed these improvements. They faced shortages of equipment, labor,
locomotives, and facilities, shortages that gravely affected service reliability. As a result,
the Postal Service, which had held more than $100 million in contracts with each of the
major Class 1 railroads,6 began to transfer large amounts of mail from rail to more
reliable but expensive trucking.7

Some of these disruptions continue today, but the railroad companies have limited their
impact on intermodal rail service. For example, many freight trains must travel through
or near Chicago, where they share congested, intersecting rail lines with other freight


4
  Wilson Technologies.
5
  Association of American Railroads, “A Short History of U.S. Freight Railroads,” “Chronology of Railroading in
America,” “Impact of the Staggers Rail Act of 1980,” “Mergers Have Led to more Efficient, Lower Cost U.S. Freight
Railroads,” http://www.aar.org/KeyIssues/Background-Papers.aspx.
6
  The Code of Federal Regulations defines Class 1 railroads as rail carriers with annual operating revenues of over
$250 million, adjusted for inflation using a formula from the Bureau of Labor Statistics. 49 CFR Part 1201, General
Instructions 1-1.
7
  Association of American Railroads, “A Short History of U.S. Freight Railroads,” “Chronology of Railroading in
America,” “Impact of the Staggers Rail Act of 1980,” “Mergers Have Led to more Efficient, Lower Cost U.S. Freight
Railroads,” http://www.aar.org/KeyIssues/Background-Papers.aspx.


                                                          2
U.S. Postal Service Office of Inspector General                                                       July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                        RARC-WP-12-013


trains, Amtrak passenger service, and local commuter rail service. This can cause
significant delays, particularly as commuter traffic increases during rush hour.8

However, this congestion does not typically impact intermodal rail service as such. In
Chicago, intermodal rail trains do not travel through the same rail yards, switches, and
track intersections as other types of freight trains; they can instead run through the city
without stopping. They are scheduled to run through Chicago during off-peak times for
commuters, so commuter rail traffic does not tend to delay intermodal rail service.
Additionally, railroads also give intermodal trains priority over other types of freight
trains more generally, and will let an intermodal train that is stopped behind another
type of freight train pass it. These factors help allow intermodal rail to achieve on-time
performance levels of more than 90 percent, according to            The rail industry has
the rail industry.9                                                 invested $460 billion in
                                                                                     capital improvements
The rapid expansion of the freight rail industry and its series   since 1980 on projects
of mergers caused major disruptions, but freight rail             to increase capacity and
continued to be a valued commodity. The industry has              improve service.
invested $460 billion in capital improvements since 1980,
funding that has exceeded 40 percent of revenues in some years.10 This investment has
funded projects to widen tunnels, repair bridges, separate tracks, and replace
intersections with underpasses and overpasses at key points — reducing congestion
and improving service levels for many types of freight rail services. These investments
have attracted attention from the federal government, as well as state and local
governments, which have also helped fund some of these projects.11

Private Sector Participation Fostered Intermodal Rail Modernization

While the Postal Service accelerated its shift away from rail transportation, two major
U.S. transportation companies, United Parcel Service (UPS) and J.B. Hunt pressured
the rail industry to make improvements. In exchange for increased volume, the railroads
invested in new equipment, modern facilities, and skilled labor until acceptable service
levels returned.12 Although intermodal rail was becoming more attractive, the railroads
faced further setbacks as a result of three major mergers and consolidations between
1997 and 1999. Issues with labor contracts, systems integration, and network planning
caused further declines in railroad service and reliability. In response, the Postal Service
transferred most of its remaining intermodal volume from rail to higher-cost trucking,
nearly eliminating their residual contracts with the railroads.

While UPS and J.B. Hunt temporarily shifted some volume to highway, they remained
major customers of intermodal rail. They continued working with the rail industry to

8
  John Schwartz, “Freight Train Late? Blame Chicago,” New York Times, May 7, 2012,
 http://www.nytimes.com/2012/05/08/us/chicago-train-congestion-slows-whole-country.html.
9
   Service data provided by Norfolk Southern.
10
    “High-speed Railroading,” The Economist, July 22, 2010, http://www.economist.com/node/16636101.
11
    John Schwartz, “Freight Train Late? Blame Chicago”
12
    UPS and J.B. Hunt are logistics companies as well as transportation service companies. For the purposes of this
paper, we discuss them as transportation service companies.


                                                          3
U.S. Postal Service Office of Inspector General                                           July 16, 2012
Strategic Advantages of Moving Mail by Rail                                            RARC-WP-12-013


restore service and address problems related to the mergers. This collaboration helped
the rail industry overcome these growing pains to become the modern industry standard
for long-distance freight transportation. Some of the improvements made during this
period included the increased use of standardized containers and achieving efficiencies
through double-stacking, in which a container is stacked on top of another on a train
car.

Figure 1 illustrates the efficiencies of a double-stack train compared to a mail truck.



                      Figure 1: A Single Mail Truck Compared to a Double-stack Train




Source: Wilson Technologies and Eric Rench.




Best in the World

The modernization of the rail industry and its high levels of capital investment have led
the American freight rail industry to be “universally recognized…as the best in the
world.”13 Intermodal service in particular has benefited from the billions of dollars spent
on infrastructure improvements that allow double-stacking on more rail corridors. This
has allowed more cargo to be transported on fewer trains, improving reliability and
efficiency for all intermodal rail traffic.

The industry has also worked on improvements that make its services easier to use and
to improve its customer service. Contracted highway transportation has been widely
considered to be easier to use than intermodal rail, but the freight rail industry has made
substantial progress toward addressing these concerns. For example, in past years,
ordering intermodal rail service involved making a number of phone calls to different rail
companies and drayage services to ensure that a particular shipment would be picked
up, transported, and delivered on time. Additionally, rail transport requires more active
management than highway as drayage, the conveyance of shipments to and from rail
yards by truck, must be timed to coincide with cutoff times for scheduled train
departures. However, more recently, rail companies have acquired wholly-owned

13
     “High-speed Railroading,” The Economist


                                                    4
U.S. Postal Service Office of Inspector General                                                   July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                    RARC-WP-12-013


logistics subsidiaries that allow customers to order service with a single phone call,
similar to ordering trucking service. These logistics subsidiaries also assist customers
with scheduling drayage in time to meet these cutoff times.

Growth of Intermodal Rail

Between 1980 and 2006, the volume of freight carried by intermodal rail more than
quadrupled from 3 million containers and trailers to more than 12 million containers and
trailers. The use of intermodal rail now represents a key
strategic advantage for three of the largest                   UPS is now the largest
transportation companies in the world. Today, UPS has          single user of intermodal
                                           14                  rail in the United States.
major contracts with all Class 1 railroads, and it
transports most ground shipments that travel over 600
miles by intermodal rail. In fact, UPS is now the largest single user of intermodal rail in
the country.15 FedEx also has major intermodal contracts with all Class 1 railroads.
While J.B. Hunt was founded purely as a trucking company, today almost 60 percent of
its revenue comes from its intermodal rail segment. Further, the company has
fundamentally adjusted its strategy to make intermodal rail the key element of its
business model. In fact, the company increased its fleet of intermodal containers by 19
percent in 2011 alone.16 As J.B. Hunt is one of the Postal Service’s largest highway
contractors and has its own optimization model to determine transportation mode, it is
possible that it may already be shipping some mail via rail. In 2011, the freight railroads
carried more than 14 million intermodal containers and trailers,17 a figure expected to
grow in 2012.

Postal Service Management Reluctant to Recommit to Intermodal Rail

In contrast, the Postal Service has virtually no intermodal programs, and has instead
committed to expensive highway trucking. Thus, the Postal Service’s competitors and
contractors have taken advantage of the low-cost, reliable infrastructure that the Postal
Service helped to create, but has since abandoned. The OIG conducted interviews with
rail company managers that indicated rail companies are interested in speaking with the
Postal Service about the opportunity to carry mail again and would work with the Postal
Service to test and gradually transition as necessary.18

As highway transportation has become the nearly exclusive form of surface
transportation for the Postal Service, memories of delays during the period it used
intermodal rail may have led to a strong bias toward maintaining the status quo.19 Postal
14
   Please see Appendix B for more information about UPS and its collaboration with the freight rail industry.
15
   Wilson Technologies.
16
   J.B. Hunt Transport Services, Inc., 2011 Annual Report,
https://ww2.jbhunt.com/INET/webcontent.nsf/0/FCCDDC9728D74245862579C200676940/$File/JBHT%202011%20A
nnual%20Report.pdf.
17
   Intermodal Association of North America, “Intermodal Market Trends & Statistics Report,” 2011,
https://www.intermodal.org/statistics_files/stats1.shtml.
18
   OIG interviews with managers from Norfolk Southern Thoroughbred Direct, March 15, 2012.
19
   Please see Appendix C for a summary of some of the Postal Service’s perceived barriers to using intermodal rail
and our responses.


                                                        5
U.S. Postal Service Office of Inspector General                                                  July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                   RARC-WP-12-013


operations are so heavily dependent on highway that any move toward greater use of
rail would require a change in culture and a departure from current practices. The Postal
Service would also require some expertise in rail management in order to shift
significant mail volume to intermodal rail, expertise it currently lacks. Adding rail
management to the Postal Service’s operational practices may require effort even with
assistance from the railroads’ logistics management subsidiaries. However, with
attention to processing times in plants as well as transit times on rail or highway, the
Postal Service can meet its service standards with intermodal rail on many lanes at a
much lower cost.


Financial Analysis

Overview

Industry data show that using rail rather than highway transportation can yield savings
of up to 50 percent.20 Calculating the exact savings for a given shipment of cargo
involves the length of the trip, the availability of rail lanes, and many other factors.
Figure 2 below shows an analysis of average cost by trip length and highlights an
inflection point of about 300 miles, where rail starts being less costly than trucking.
Industry practice, however, tends to prefer trucking for transportation distances less
than 500 miles. It is also important to note that the benefit of rail over trucking increases
as distance traveled increases because rail costs are more fixed and less variable than
highway. In addition to the potential savings per load of cargo, intermodal rail can be
much less costly for some customers because it can be purchased one way at a time
instead of in round trips.




20
  Thomas R. Brown and Anthony B. Hatch, “The Value of Rail Intermodal to the U.S. Economy,” Strategic Directions
LLC, September 19, 2002, http://intermodal.transportation.org/Documents/brown.pdf.


                                                       6
U.S. Postal Service Office of Inspector General                                                 July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                  RARC-WP-12-013

                 Figure 2: Intermodal Rail vs. Long-Distance Trucking Cost Per Load




Source: Mechanical Database, http://mechdb.com/index.php/Rail_vs_truck_industry. Modified.




Given these advantages, it is reasonable to assume that the Postal Service could save
money today by converting some of its volume to rail. If it were to realign its logistics
network to better match rail infrastructure, it could expect far greater savings. Such
changes could take years to implement and would require changes to the Postal
Service’s transportation skills and culture. However, many other businesses, large and
small, now enjoy long-term cost savings because they have made this strategic shift. In
fact, rail has become the industry standard method for the long-distance transportation
of goods in the United States.

OIG Cost Savings Model

In addition to the long-term savings potential, RARC created a simple proof-of-concept
financial model. This model estimates how much the Postal Service could save by using
rail instead of highway transportation today without changes to the Postal Service’s
network. The analysis concluded that under the current network, about $100 million in
annual savings could be realized by converting specific transportation lanes from
highway to rail. The analysis examined the current, major transportation links for ground
products as they are now configured and compared the costs of rail shipment versus


                                                       7
U.S. Postal Service Office of Inspector General                                                   July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                    RARC-WP-12-013


highway contract shipment for each and summarized the total savings.21 The rail
industry provided cost estimates for rail and the Postal Service’s current data provided
the highway contract information. Going forward, a redesigned postal network, more
aligned with the nation’s rail infrastructure, could produce far greater savings, but a
precise estimate of this long-term potential was beyond the scope of the OIG’s analysis.

Currently, the Postal Service pays highway carriers for
round-trip transportation. This can create nearly empty      Round-trip highway
backhaul trips because of imbalances in the direction        transportation contracts
                                                             can cause backhauls that
of mail flow. Because rail transportation is billed in
                                                             one-way rail
one-way segments, about 18,000 annual backhaul               transportation avoids.
trips totaling more than 35 million miles could
potentially be eliminated by using rail transportation, which alone could save the Postal
Service more than $65 million per year.

Highway transportation is particularly sensitive to changing diesel fuel prices —
significantly more so than rail transportation.22 This difference leaves highway
transportation comparatively more vulnerable to rising fuel prices. If diesel fuel prices
were to rise from the current price of about $4 per gallon, the model’s estimated savings
would likewise continue to grow.23

Other Potential Savings Opportunities

The model’s scope included only existing long-haul highway transportation between
Network Distribution Centers (NDCs), representing only $545 million of the $1.168
billion in costs allotted by the Postal Service to the transportation of Standard Mail,
Package Services, and Periodicals.24 The OIG’s analysis indicates that the Postal
Service could save about $100 million per year, or about 18 percent, by moving this
mail volume from highway to intermodal rail. Additional savings could be realized with
any of the following measures, which were not studied:

        Processing mail in locations closer to rail – Drayage, or conveying shipments to
         and from the rail yards by truck, accounts for a very large portion of intermodal
         rail costs.25 Processing mail closer to rail yards would reduce these costs, but a
         more extensive model would be necessary to estimate the potential cost savings.
        Examining other surface transportation – There may be additional savings across
         other transportation lanes between non-NDC facilities or by adjusting the NDC
         network.
        Designing products for rail – Intermodal rail could provide an opportunity for new
         mail products specifically designed to be carried on it.
21
   For more detail regarding this model, please refer to Appendix D.
22
   OIG analysis. Rail cost data provided by Norfolk Southern.
23
   Energy Information Administration, “Short-term Energy Outlook,” May 8, 2012,
http://www.eia.gov/forecasts/steo/realprices/.
24
   Postal Service Cost Segments and Components, FY 2011.
25
   Edward K. Morlok and Lazar N. Spasovic, “Approaches For Improving Drayage in Rail-Truck Intermodal Service,”
National Center for Transportation and Industrial Productivity, August 18, 1994,
http://www.transportation.njit.edu/nctip/final_report/approaches_for_improving_drayage.pdf.


                                                       8
U.S. Postal Service Office of Inspector General                                                        July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                         RARC-WP-12-013


Future Trends Suggest a Need for Rail

Capital Investment

Despite a recession, the freight railroad industry invested $10.7 billion in capital
improvements in 2010 and $12 billion in 2011.26 With demand for freight transportation
projected to nearly double from 19.3 billion tons in 2007 to 37.2 billion tons in 2035, the
freight railroads project that they will spend $121 billion to $148 billion in capital
expenditures to meet the rising demand.27 This represents a future capital investment
rate of 17 percent of the industry’s revenue and shows the industry’s intention to devote
significant resources to support future growth. This investment in new equipment and
infrastructure to support such things as double-stacking can help intermodal rail meet
the anticipated demand for freight transportation with high levels of performance.

Over the same period, the trucking industry has spent little on capital investments.
Sales volumes of major trucks, tractors, and trailers over the past several years have
declined. In February 2009, Class 8 tractor sales hit a 17-year low.28 In addition, the
trucking industry’s profit margins are falling at least partially because of costs
associated with its reliance on the increasingly congested highway infrastructure. In
2010, congestion on America’s highways cost the trucking industry $23 billion in delays
and fuel costs.29

Most importantly, the trucking industry does not directly pay for highway improvements
or have control over the expansion of its infrastructure. While that may add to the
profitability of the industry, it means that the quality and capacity of its routes are mostly
beyond its control. About 70 percent of highway construction and maintenance costs
are paid with funds from fuel taxes. The federal excise tax on diesel fuel has remained
at 24.4 cents per gallon since 1993. This tax is not indexed to inflation.30 In 1993, diesel
fuel cost an average of $1.11 per gallon, so the excise tax made up 22 percent of the
total price of diesel fuel. As of May 2012, diesel fuel costs an average of $4.06 per
gallon.31 This means that the federal excise tax now comprises only six percent of the
price of diesel fuel, much less than one-third of what it comprised in 1993. Even with
this erosion in value, federal excise taxes on fuel must still support the majority of
26
   Association of American Railroads, Great Expectations 2011, http://www.aar.org/GreatExpectations.aspx.
27
   Statement of C. Wick Moorman, President and Chief Executive Officer, Norfolk Southern Corporation, Norfolk, VA,
Hearing before the Subcommittee on Select Revenue Measures, Ways and Means Committee, U.S. House of
Representatives, July 23, 2009, http://www.gpo.gov/fdsys/pkg/CHRG-111hhrg63001/pdf/CHRG-111hhrg63001.pdf.
28
   “Class 8 sales hit 17-year low,” Transport Topics, February 23, 2009. The National Highway Traffic Safety
Administration defines Class 8 tractors as trucks with gross vehicle weight ratings (weight of the vehicle plus the
maximum limit of its cargo capacity) over 33,000 pounds. These include all tractor trailer trucks of the type commonly
used to move mail and other cargo by highway. 49 CFR Part 565.15.
29
   Texas Transportation Institute, 2011 Urban Mobility Report, September 2011,
http://tti.tamu.edu/documents/mobility-report-2011.pdf.
30
   U.S. Department of Transportation, “Highway History,” www.fhwa.dot.gov/infrastructure/gastax.cfm. The Omnibus
Budget Reconciliation Act of 1993 increased the gasoline tax from 14.1 to 18.4 cents per gallon. This 4.3-cent
increase was directed entirely to the U.S. Treasury general fund for deficit reduction. The Taxpayer Relief Act of 1997
redirected the 4.3-cent increase to the Highway Trust Fund.
31
   Energy Information Administration, “Short-term Energy Outlook,” May 8, 2012,
http://www.eia.gov/forecasts/steo/realprices/. Prices are given in nominal dollars to demonstrate how inflation has
eroded these excise taxes.


                                                           9
U.S. Postal Service Office of Inspector General                                                                                            July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                                                             RARC-WP-12-013


highway construction and maintenance costs, costs that have grown significantly since
1993. See Figure 3 below for a chart comparing fuel taxes since 1993.

                                                                   Figure 3: Inflation Has Eroded Purchasing Power of Fuel Tax Revenue



                                                                             Diesel Fuel Excise Tax: 24.4 Cents Per Gallon
                                                              25
     Proportion of Diesel Fuel Excise Tax in Cost of Diesel




                                                                                  22 percent

                                                              20
                         Fuel (Percent)




                                                              15



                                                              10

                                                                                                                           6 percent
                                                               5



                                                               0
                                                                          1993 Price: $1.11 Per Gallon            2012 Price: $4.06 Per Gallon


Source: Energy Information Administration. Nominal dollars.



The remaining costs are borne by federal and state general fund receipts, bonds, and
various taxes. While the president’s budget proposal for fiscal year (FY) 2013 would
authorize $305 billion in road and bridge improvements over six years,32 Congress last
approved a budget in April 2009 and has funded the U.S. government with short-term
extensions since then.33 These include a bill passed in July 2012 that would keep
highway funding at current levels for 27 months.34 Tight state and federal budgets may
restrict resources available for highway construction and maintenance, and the political
processes for budget authorization and appropriations may not direct available
transportation resources to projects most critical for the trucking industry. While
government investment does help support the growth of the rail industry to some extent,
it is essential to the efficient operation of the trucking industry. Current trends suggest
that this dependence could be a serious problem going forward. It seems likely that this


32
   The White House Blog, “2013 Transportation Budget: What It Means for You,” February 14, 2012,
http://whitehouse.gov/blog/2012/02/14/2013-transportation-budget-what-it-means-you.
33
   111th Congress, S.CON.RES.13, http://hdl.loc.gov/loc.uscongress/legislation.111sconres13.
34
   112th Congress, H.R. 4348, http://hdl.loc.gov/loc.uscongress/legislation.112hr4348.


                                                                                                         10
U.S. Postal Service Office of Inspector General                                                      July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                       RARC-WP-12-013


lack of investment in highway infrastructure may increasingly hurt the performance of
highway transportation in coming years.

Workforce Trends Impact Stability and Reliability of Service

While both the railroad and trucking industries faced labor reductions during the recent
recession, projections indicate that future demand will require increases to the
workforces of each industry. The railroad industry appears ready to meet its coming
workforce requirements, while the trucking industry may have difficulty doing so. This
represents a long-term strategic risk for the Postal Service that it may be able to
manage by shifting some mail volume to intermodal rail.

Railroad Industry Workforce
The Federal Railroad Administration predicts that in the next 25 years, as population
levels increase, the rail network can expect to ship 400 million additional tons of freight.
In 2010, rail employment was up 5.2 percent, bringing rail employment up to 175,000
employees. The railroads added an additional 10,000
employees in 2011, and will need to keep employment levels         Two railroad crew
                                                                   members can move
rising by 3 to 5 percent annually to keep up with demand,
                          35                                       180 intermodal trailer
retirement, and attrition. The industry appears well               loads about 300 miles
positioned to do so. One reason for this is that railroad          on a single shift.
employees are well compensated. According to U.S.
government data, in 2009 full-time railroad employees earned wages averaging $81,563
per year and benefits of $25,522 per year, a total average annual compensation of
$107,085.36

Railroad companies will need to increase the size of their workforces, but will have less
trouble doing so than trucking companies. Freight railroads require fewer crew members
than the trucking industry; two railroad crew members can operate a train that can move
180 trailer loads 300 miles on a single shift. Additionally, rail companies report a low
level of employee turnover, around 6 percent.37 With its attractive annual salary and
benefits, smaller workforce requirements, and low turnover, the freight railroad industry
is equipped to recruit, hire, and sustain a qualified workforce well into the future.

Trucking Industry Workforce
Based on freight projections and current market share, by 2035 the trucking industry will
carry an additional 2.1 billion tons each year. This will require 131.3 million additional
truck trips each year representing an increase of 20 billion vehicle miles, 315 billion ton
miles, and requiring an additional 258,000 drivers, a demand the trucking industry is
unlikely to be able to meet.38


35
   Association of American Railroads, Great Expectations 2011.
36
   Ibid.
37
   Figure provided by Norfolk Southern.
38
   U.S. Department of Transportation, Federal Railroad Administration, “National Rail Plan: Moving Forward,”
September 2010, http://www.fra.dot.gov/downloads/NRP_Sept2010_WEB.pdf.


                                                         11
U.S. Postal Service Office of Inspector General                                                       July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                        RARC-WP-12-013


The work environment for the long-haul truck driver is harsh. Extended driver training
programs, low wages, long stretches of driving in poor weather conditions, and few or
no retirement benefits result in high turnover rates and driver shortages. In 2011, the
turnover rate for drivers of large fleets grew to 75 percent, up from 69 percent in 2010.39
The median pay for long-haul drivers also rose to $21.81 per hour or $45,370
annually.40 In addition, new regulations to improve safety reduce potential working hours
and increase required downtime between shifts, reducing income potential for
commercial drivers and the industry’s productivity.41 Further, many drivers now require
Transportation Worker Identification Credentials (TWIC) from the Transportation
Security Administration (TSA) to access secure port facilities, a requirement planned to
expand to include government installations, rail yards, and other facilities. Industry
executives have predicted that as this takes effect, TWIC requirements will disqualify up
to 20 percent of the existing driver workforce.42

While rail has become the preferred choice for long-distance transportation, trucking will
always have an important role. Trucking is notably more cost effective over shorter
distances than intermodal rail, and short-haul drivers can make several round trips per
day on a given route while still being able to return to their homes at the end of a shift.
This makes them much easier to recruit and retain; short-haul drivers have a much
lower turnover rate than long-haul drivers. These factors leave the trucking industry well
placed to continue to meet the demand for short-haul transportation, such as drayage
between plants and transportation facilities or routes up to about 500 miles in length.
However, trucking remains ill prepared to handle the expected growth in long-distance
transportation.

Lower Fuel Consumption Makes Railroads Less Vulnerable to Fluctuating
Fuel Prices

Over the past 40 years, fuel price volatility has been one of the most difficult factors to
manage in the transportation industry. An analysis of fuel prices clearly shows that they
have led to sharp increases in the operating costs of U.S. ground transportation.43 Both
the freight railroad and trucking industries have experienced a doubling of fuel costs
since the late 1990s. Based on a worst case scenario, the industries could face a
quadrupling of prices by 2020. The Department of Energy forecasts the price of diesel
and other fuels, but geopolitical factors and other potential shocks to the market could
cause unexpected spikes in fuel costs.


39
   “Driver Turnover Rises in First Quarter,” Heavy Duty Trucking Magazine, June 23, 2011,
http://www.truckinginfo.com/maintenance/news-detail.asp?news_id=74028&news_category_id=6.
40
   University of Memphis Center for Intermodal Freight Transportation Studies (CIFTS), Freight Mobility Publication,
Spring 2010. http://www.memphis.edu/cifts/pdfs/Examining_Driver_Turnover.pdf.
41
   Tim Cama and Eric Miller, “DOT Keeps 11 Hour Limit in Updated HOS Rules,” Transport Topics, December 22,
2011.
42
   Transportation Security Administration, “Frequently Asked Questions,”
www.tsa.gov/what_we_do/layers/twic/twic_faqs.shtm.
43
   U.S. Maritime Administration, U.S. Department of Transportation, Impact of High Oil Prices on Freight
Transportation: Modal Shift Potential, October 2008, http://www.marad.dot.gov/documents/Modal_Shift_Study_-
_Technical_Report.pdf.


                                                         12
U.S. Postal Service Office of Inspector General                                                July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                 RARC-WP-12-013


However, rail companies are much better positioned to cope with such cost increases,
as trains can move much more cargo with a given amount of fuel than trucks.
Comparing fuel consumption in terms of ton miles carried per gallon, railroads were able
to move one ton of cargo an average of 484 miles with one gallon of diesel fuel. This is
four times more efficient than trucking.44

Rail transportation’s fuel efficiency makes fuel a much smaller proportion of rail
companies’ operating costs, allowing the railroads to manage the cost of increased fuel
consumption despite rising prices for diesel fuel. As shown in Figure 4, the industry’s
fuel consumption has remained steady even as freight rail volume has surged.

                                  Figure 4: Stability of Rail Fuel Consumption




Source: Association of American Railroads.



Fuel prices impacts are much bigger in the trucking industry than in the freight railroad
industry because the price of diesel fuel is a larger portion of a truck trip. In 2005, the
average price of diesel fuel was $2.40 per gallon and the full cost of highway
transportation was approximately $1.75 per mile, including labor and equipment costs.
Fuel comprised approximately 46 percent of that cost. Today the average price of diesel
fuel is $4.06 per gallon and the estimated cost to run a truck is $2.28 per mile, an
increase of almost 24 percent.45



44
     Association of American Railroads, “Overview of American Railroads,” March 20, 2011.
45
     Ibid.


                                                          13
U.S. Postal Service Office of Inspector General                                                July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                 RARC-WP-12-013


Both the railroad and trucking industries are addressing fuel consumption as a means to
stay cost competitive, but rail transportation remains far more fuel efficient. This fuel
efficiency can save the Postal Service on transportation costs as well as reduce its
environmental impact. The stability of the freight railroad industry’s diesel fuel
consumption helps insulate it from this risk.


Environmental Impacts
In the Postal Service’s 2010 Sustainability Report, Postmaster General Patrick Donahoe
stated, “By eliminating waste and reducing the energy and fuel we use, we lower our
carbon footprint, and drive our costs down.” The Postal Service’s goal is to reduce
greenhouse gas emissions 20 percent by FY 2020.46 Simply by moving mail volume to
rail, the Postal Service could make substantial progress toward these important goals.

Freight railroads and the trucking industry are both
committed to improving environmental sustainability.           Moving freight by rail
                                                               instead of truck reduces
Large corporations such as Caterpillar, Peterbilt, UPS,
                                                               greenhouse gas emissions
and J.B. Hunt are demanding that their vendors and             by 75 percent.
suppliers have and practice carbon emission reduction
programs. Although the trucking industry is developing
new, more fuel efficient and “cleaner” engines and trucks, a more immediate solution
has been the use of intermodal rail in transportation supply chains. Because railroads
are four times more fuel efficient than trucks, moving freight by rail reduces greenhouse
gas emissions by 75 percent.47

As shown in Figure 5, if just 10 percent of long-haul freight now moving by truck were
transferred to the railroads, annual greenhouse gas emissions would fall by more than
12 million tons, equal to taking two million cars off the road or planting 280 million trees.
Cumulative reductions through 2020 would be around 160 million tons.48




46
   U.S. Postal Service, “Sustainability 2010 Report," page 2. http://about.usps.com/what-we-are-
doing/green/report/2010/assets/downloads/asr-2010.pdf.
47
   Association of American Railroads, "Freight Railroads Help Reduce Greenhouse Gas Emissions," November 2011,
http://www.aar.org/~/media/aar/Background-Papers/Freight-RR-Help-Reduce-Emissions.ashx.
48
   Ibid.


                                                     14
U.S. Postal Service Office of Inspector General                                 July 16, 2012
Strategic Advantages of Moving Mail by Rail                                  RARC-WP-12-013

                            Figure 5: Greenhouse Gas Emission Reductions




Source: Association of American Railroads.




Conclusions and Policy Options
Intermodal rail is a sensible option for helping the Postal Service reduce its expenses,
improve environmental sustainability, and make itself less vulnerable to potential future
shocks in highway transportation costs, service, and capacity — all while maintaining its
service standards. While we recognize and are sensitive to the concerns that moved it
away from rail over the years, we suggest that the Postal Service consider taking steps
to make rail a more important part of its transportation operations. These steps could
include one or more of the following:

       Incorporate intermodal rail into existing surface transportation options in the
        current network. Our analysis demonstrates the potential for cost savings in
        existing transportation lanes. The Postal Service could immediately start
        achieving cost savings and realizing rail’s other benefits by shifting some mail
        volume to intermodal rail and becoming more acquainted with the current state of
        the rail industry.

       The Postal Service could work to align its processing and surface transportation
        network with the country’s rail infrastructure instead of highway. This would be a
        long-term strategy involving much planning and implementation work over a
        number of years, but the potential benefits could be very large. Indeed, the



                                                  15
U.S. Postal Service Office of Inspector General                                 July 16, 2012
Strategic Advantages of Moving Mail by Rail                                  RARC-WP-12-013


        Postal Service’s major competitors and highway contractors have already made
        this shift.

       To fully take advantage of the potential benefits and help manage the transition
        to rail, the Postal Service could seek outside expertise or develop it in house.
        Such expertise would help the Postal Service to wisely manage its expenses,
        develop a strategy, and balance the respective benefits of both highway and
        intermodal rail as part of its transportation mix.

Given the Postal Service’s current financial position, it must explore every aspect of its
business model to identify and implement practices that reduce costs while continuing
to meet its mandates and provide ratepayers with high-quality service. The Postal
Service also must consider the long-term, strategic risks as it plans the future of its
transportation network — and intermodal rail can be a viable option for helping to
mitigate those risks.




                                                  16
U.S. Postal Service Office of Inspector General             July 16, 2012
Strategic Advantages of Moving Mail by Rail              RARC-WP-12-013




                                            Appendices




                                                  17
U.S. Postal Service Office of Inspector General                                                         July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                          RARC-WP-12-013



Appendix A                 The Postal Service and Amtrak

The National Railroad Passenger Corporation (Amtrak) was created by the U.S.
Government in 1972 following the passage of the Rail Passenger Service Act in 1970.
Mail service was part of Amtrak’s original charter, and Amtrak began to provide
transportation service to the Postal Service shortly after its formation. Because Amtrak
had rights to run on any railroad line, it was able to offer the Postal Service a truck-
competitive service that connected all of its Bulk Mail Centers (BMCs) and Area
Distribution Centers (ADCs). Amtrak passenger trains run at speeds faster than freight
trains (up to 80 to 90 miles per hour, compared with up to around 50 miles per hour for
freight rail), so it was able to provide 3-day coast-to-coast service as well as time-
competitive service from Richmond to Boston in the northeast corridor. This enabled
Amtrak not only to handle Standard Mail, Periodicals, and Packages, but also compete
with teams of truck drivers and air service on Priority and First-Class Mail.

By 1994 Amtrak had more than $100 million in annual business with the Postal Service
providing nationwide transportation and mail sorting services. Beginning in 1998,
Amtrak began expanding its high-speed boxcar and roadrailer services to include a
program called Carload Express, made available to nonpostal customers. This service
was used to ship a variety of consumer goods including perishables.49 The rapid growth
of this nonpostal business created congestion problems that slowed down and delayed
Amtrak’s network, hurting its service-sensitive core passenger service.

Citing service, profit, and management issues, in 2004 Amtrak senior management
decided not to renew any of Amtrak’s non-passenger contracts and focus solely on its
core passenger transport business. Amtrak has since sold or retired many of its boxcars
and roadrailers, and now uses its mail sorting facilities for baggage and material
storage. While there is the potential for mutual benefit, it would take both investment in
equipment and renewed interest from Amtrak’s management for it to revive mail
transportation in the future.50




49
   Roadrailers are trailers with two sets of wheels: one set of metal train wheels and one set of rubber truck wheels.
This type of trailer can run on both rail and highway.
50
   Information in this appendix was gathered from rail industry experts, including interviews with Amtrak managers.


                                                           18
U.S. Postal Service Office of Inspector General                                July 16, 2012
Strategic Advantages of Moving Mail by Rail                                 RARC-WP-12-013



Appendix B                  UPS and Intermodal Rail — A Collaborative Success

By the mid-1980s, UPS began shifting package and document transportation from
trucking to rail. By 1990, UPS was the dominant shipping customer of all the Class 1
railroads, shipping trailers on more than 20 intermodal trains every day.

In 1992, UPS worked with Conrail and the Santa Fe Railroad to build UPS’s largest
consolidation facility and joint intermodal rail yard in Willow Springs, Illinois, 17 miles
southwest of Chicago. Completed in 1995, this 186-acre rail yard allowed UPS to
transfer more than 950 trailers between the rail yard and its sort center each day without
using public roads.

“We have an interactive electronic system,” explains Michael Johl, UPS's community
relations manager. “The railroads are part of the whole UPS chain. They understand
that every package in every trailer on every train that they move for us is guaranteed.
We work in partnership to make that happen.”

Today, the Willow Springs intermodal rail yard is the second busiest rail yard in the
country, handling more than 770,000 trailers per year. It has also attracted other
transportation companies such as truckload carriers J.B. Hunt and Schneider Transport,
as well as less-than-truckload carriers Yellow Freight and ABF Truck lines.51




51
     Wilson Technologies.


                                                  19
U.S. Postal Service Office of Inspector General                                                    July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                     RARC-WP-12-013



Appendix C                Perceived Barriers to Change

During the project, the OIG conducted interviews with Postal Service surface
transportation managers at Headquarters and in the field. Interviewees identified
potential barriers to intermodal rail conversion, summarized and addressed below.


                Perceived Barrier                                              Response
 Mail is often lumped together and rail might               Yes, however rail service is most suited to
 require operational changes to segregate                   Standard Mail and Packages where future
 mail classes in trailer loading                            growth is projected
 Strict rail cutoff times limit the loading window          Loading to meet rail cutoffs can be overcome
 and can create partial trailer loads                       by rescheduling, and partial trailer loads can
                                                            fill as Standard Mail and Package volumes
                                                            grow
 Trucking industry is better equipped to                    Eastern railroads have a fleet of more than
 provide trailers for NDC daily use and peak                32,000 containers and access to thousands of
 seasons                                                    private ocean containers, all located at rail
                                                            terminals within 25 miles of selected NDCs
 Rail consolidations have limited the number                Instead of 14 smaller financially unstable
 of choices and service options                             railroads, there are now 6 stable Class 1
                                                            railroads that offer larger terminals with more
                                                            capacity, faster service, and more frequent
                                                            intermodal schedules
 Rail schedules are much slower than trucks                 Modern transcontinental intermodal trains run
 and cannot meet mail service standards                     within hours of single-driver trucks. Although
                                                            they cannot satisfy First-Class and Priority
                                                            Mail schedules, they can meet service
                                                            standards for Standard Mail and Packages in
                                                            many lanes with appropriate operational
                                                            planning
 The Postal Service is no longer a large-                   The railroads have expressed an interest in
 volume shipper and therefore the railroads                 working with the Postal Service and have told
 are no longer interested in its business and               the OIG that they are willing to commit to ship
 will no longer provide discounts or prime                  mail loads on the same trains as their premium
 transportation services                                    customers (UPS, FedEx, J.B. Hunt)
 Railroads are no longer interested in                      Most major railroads have wholly-owned
 managing drayage, trailer pools, and multiple              logistics groups that make ordering services
 connections between the different railroads                from the railroads, including drayage, very
                                                            similar to ordering trucks
 Rail service does not operate on major                     While rail yards and terminals close on major
 holidays                                                   holidays, freight rail trains continue service
                                                            every day of the year
Source: Wilson Technologies; OIG analysis; and interviews with postal managers/employees, rail experts, and
railroad employees.




                                                       20
U.S. Postal Service Office of Inspector General                                                  July 16, 2012
Strategic Advantages of Moving Mail by Rail                                                   RARC-WP-12-013




Appendix D                Financial Analysis Model

1) The study collected highway transportation data including the volumes of inter-NDC
   mail traffic from the Transportation Information Management Evaluation System
   (TIMES) for a period between October 4, 2010, and April 4, 2011.

2) Using this data, we compiled a list of Tier 2 and Tier 3 NDC origin/destination
   combinations (e.g., Jersey City to Los Angeles, San Francisco to Pittsburgh).

3) The analysis calculated road distance from the origin facility to the destination facility
   by using PC Miler (a road mileage utility). The inputs into this system are the origin
   and the destination five-digit ZIP codes.

4) The total number of trips across each lane was counted along with the average daily
   trips per lane. This included empty backhaul trips from highway transportation, which
   must be purchased in roundtrips.

5) The cost for existing highway transportation was calculated by multiplying the
   number of miles from step 3 by the rate per highway mile of $1.85. This rate was
   calculated as follows:

     a) Filtered highway contract data for the lanes of interest;

     b) The cost of those lanes was weighted by the number of daily trips;

     c) Weighted costs were multiplied by the mileage (total daily mileage);

     d) An average of this weighted sum was taken. The average contract cost (driver
        and truck, without fuel) for each trip in the lanes of interest was $1.05 per mile.

     e) Estimated fuel costs by assuming fuel use of 5 miles per gallon and a diesel price
        of $4 per gallon, an approximation of reported diesel prices from the Energy
        Information Administration.52

     The sum of these figures creates an estimated highway transportation cost of $1.85
     per mile. Although the Postal Service’s standard rate per highway mile is $1.80 per
     mile, we used the rate of $1.85 per mile because it reflects the weighted average of
     the particular lanes of interest more accurately.

6) A major Class 1 rail company provided estimates of the cost of intermodal rail
   shipments and this was compared to the estimate of current highway costs.



52
   U.S. Energy Information Administration, “Gasoline and Diesel Fuel Update,” May 14, 2012,
http://www.eia.gov/petroleum/gasdiesel/.


                                                        21
